OIG Audit Report 02-23
Federal Bureau of Prisons
Annual Financial Statement
Fiscal Year 2001
Report No. 02-23
July 2002
Office of the Inspector General
EXECUTIVE SUMMARY
The Federal Bureau of Prisons (BOP) financial reporting component is comprised of the BOP appropriated activities and the BOP Commissary Trust Fund (Commissary).  The BOP is charged with overseeing the operations of the federal prison system.  Its mission is to protect society by confining offenders in the controlled environments of prisons and community based facilities.  The Commissary provides inmates with access to products and services not provided by the BOP.  At fiscal year-end, the BOP confined approximately 156,570 offenders in 100 institutions and contract facilities throughout the United States.
This audit report contains the financial statements of the BOP for the fiscal years ended September 30, 2001 and September 30, 2000.  Under the direction of the Office of the Inspector General (OIG), Cotton & Company LLP performed the audit which resulted in an unqualified opinion on the FY 2001 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  For FY 2000, the BOP also received an unqualified opinion on its financial statements (OIG Report No. 01-25).
Furthermore, Cotton & Company LLP issued Independent Auditor's Reports on Internal Control and Compliance, which do not contain any findings or recommendations.  BOP management successfully corrected the three reportable conditions that were identified in the FY 2000 auditor's report on internal control.